No. 20-

Supreme Court, U.S.
FILED

7^

NOV 1 e 2020
OFFICE OF THE CLERK

In The

Supreme Court of the United States
October Term, 2020
Rodney Anton Williamson,
Petitioner
v.

United States of America,
Respondent

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI

Rodney Anton Williamson, pro se
Register Number: 23534-057
FCI Ashland
P.O. Box 6001
Ashland, KY 41105

Petitioner Rodney Anton Williamson respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of Appeals for the Fourth Circuit.

QUESTIONS PRESENTED
The right to counsel in this case was violated by the prosecution surreptitiously
recording Petitioner after indictment and before arrest and arraignment in violation
of Massiah v. United States, 377 U.S. 201 (1964), by ineffective and conflict-ladened
performance by trial counsel and by appellate counsel mishandling the Massiah
issues; by the trial court rushing unprepared counsel into trial on the same day he
appeared in place of counsel who withdrew once he learned the devastating
statements on the tape recording upended his trial strategy; by representation by
counsel in conflict with the client; by denying Rule 33 motions as untimely; by
denying appointed substitute counsel after verdict for assistance in a new trial
motion asserting the ineffectiveness and conflicts of interest of trial counsel
although allowing trial counsel to withdraw due to the conflicts; by trial and
appellate court rulings misconstruing this Court’s right to counsel decisions in
Massiah; and by neglecting ineffective counsel in analyzing Massiah and other
errors for prejudice.
Petitioner raised claims of ineffective assistance of counsel (IAC) and denial of
counsel claims pro se at numerous points along the torturous path of this case
through the courts, only to be met at every point with the response that the claims
are not cognizable until heard at the trial court upon evidentiary hearing to amplify
the otherwise cold record. And yet, Petitioner’s pro se effort to raise some of these
counsel issues post-verdict and pre-sentencing by Rule 33(b)(2) motion was denied
as untimely, albeit the untimeliness was due to neglect of the trial counsel that
ii

withdrew. As a result, his claims of trial error were denied by application of high
burdens for him to show prejudice, neglecting the denials of the right to counsel
responsible for causing or exacerbating the constitutional trial and appeals errors.
Once the appeals had run their course, Petitioner sought relief under 28 U.S.C. §
2255, raising a number of IAC and denial of counsel claims that had never been
reviewed. The District Court Magistrate dismissed the § 2255 claims by rote
application of the prior appeals holdings the error committed by counsel had been
resolved against Petitioner so the IAC claims should also be dismissed as
nonprejudicial. Petitioner was denied any hearing on his § 2255 motion's 12-page
affidavit and additional submissions to give factual support to his claims. When
Petitioner sought appellate review, his request for a certificate of appealability was
denied. The “feedback loop” in this case has been fundamentally unfair, and
Petitioner should have his § 2255 heard in an evidentiary hearing.
This case presents the following questions:

1. When Petitioner in his motion for habeas corpus relief under 28 U.S.C. § 2255
raises meritorious claims of denial of Sixth Amendment right to counsel, none of
which has been previously reviewed, but the District Court denies relief without
an evidentiary hearing and without application of proper legal principles, did
the Court of Appeals err in denying a certificate of appealability?

iii

2. When trial counsel is ineffective and conflict-disabled, should the denial of
counsel be analyzed as Cuyler presumed error and a new trial required?

3. Did the trial court deny Petitioner counsel by forcing him to choose to keep
conflicted retained counsel or retain substitute counsel, but would not consider
appointing counsel on the ground Petitioner had previously waived appointed
counsel because he intended to and did hire counsel but was now claiming
indigence after his conflicted counsel was allowed to withdraw, so he was denied
counsel and forced to proceed pro se?

4. When conflict-disabled and ineffective trial counsel failed to file a Rule 33(b)(2)
motion on the ground of his own ineffectiveness and was allowed to withdraw for
his conflict with Petitioner, and Petitioner requested to file his Rule 33(b)(2)
motion pro se before sentencing or notice of appeal, did the trial court err by
failing to exercise discretion to consider the motion as timely?

5. Should this Court remand the case for District Court hearing allowing
Petitioner to present evidence in support of his Sixth Amendment claims?

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED

11

TABLE OF AUTHORITIES

vm

OPINIONS BELOW

1

JURISDICTION

2

RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS

2

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

8

I. The Decision below conflicts with this Court’s rulings

8

A. The Court of Appeals by withholding the COA was in violation of this
Court’s clear directives because Petitioner’s § 2255 issues raise
substantial constitutional questions justifying appellate review under 28
U.S.C. § 2253................................. .................................................................. 9
1. Trial counsel’s conflict of interests warrants presumed prejudice.... 11
16
2. The District Court erred denying counsel for Rule 33..............
18
3. The District Court erred ruling the Rule 33 motion untimely..
4. The District Court applied incorrect standards to IAC claims .
20
28
5. An evidentiary hearing is required for Massiah poisoned fruit
6. The COA was withheld in violation of this Court’s precedents
30
II. The writ should be granted because the ruling below withholding the
COA is in direct conflict with clear precedents of this Court and threatens
32
the Great Writ and public respect for the administration of justice
CONCLUSION

33

v

APPENDICES

App. 1

The April 22, 2020, panel opinion of the court of appeals denying the
Petitioner a CO A is available at Williamson v. United States, 802 Fed.
App. 795 (4th Cir. 2020), Dkt #380-381.

App. 3

The June 23, 2020, order of the Court of Appeals denying rehearing en
banc is available at Williamson v. United State, 2020 U.S. App Lexis
19520 (4th Cir. June 23, 2020), Dkt # 383.

App. 4

On January 9, 2018, Magistrate Judge Joe L. Webster, issued a report
and recommendation that Petitioners §2255 motion to vacate or correct
sentence should be denied, Williamson v. United States, Order &
Recommendation, No. l:14-CV-00870-NCT-JLW (M.D.N.C. January 9,
2019), Dkt #364.

App. 25

The March 26, 2018, Judge Tilley entered an order adopting the
Magistrate's report and recommendation to deny the Petitioner's
motion to vacate, set aside, correct sentence (§2255) and Judgment
denying claims and dismissing the case, Williamson v. United States,
Judgment, No. l:14-CV-00870-NCT-JLW (M.D.N.C. March 26, 2019)
Dkt #368-369.

App. 29 Trial Counsel Tin’s motion to withdraw, filed August 13, 2007, Dkt
#117.
vi

App. 32

Transcript of August 13, 2007, hearing re attorney Tin’s motion to
withdraw, Dkt #258.

App. 37

Trial Counsel Beechler’s motion to withdraw, filed November 16, 2007,
Dkt. #165 [motion was allowed November 20, 2007, Minute Entry].

App. 40

Transcript of November 20, 2007, hearing re attorney Beechler’s
motion to withdraw, Dkt #220.

App. 74

Excerpt from Petitioner's Motion to Vacate, Set Aside or Correct
Sentence (Pursuant to 28 U.S.C. § 2255), Williamson v. United States,
No. l:14-CV-00870-NCT, filed October 8, 2014, being Page 14 through
Page Page 26 of this motion, being Petitioner's Affidavit, Dkt #321.

App. 88

The following statutes and rule are relevant to this Petition.
App. 88

28 U.S.C. § 2253

App. 89

18 U.S.C. § 3006A(a)(2)

App. 93

Fed. R. Crim. P. 33

App. 93

Fed. R. Crim. P. 52

vii

TABLE OF AUTHORITIES
Page(s)
Cases
Buck v. Davis,
580 U.S.

, 137 S. Ct. 759, 197 L.Ed.2d 1 (2017)

8

Chapman v. California,
386 U.S. 18, 24 (1967)

23

Coleman v. Thompson,
501 U.S. 722 (1991)

18

Conley v. United States,
415 F.3d 183, 188 (1st Cir. 2005)

22

Cuyler v. Sullivan,
446 U.S. 335, 350 (1980)
23-24

iv, 21,

Evitts v. Lucey,
469 U.S. 387, 396 (1985)

17

Faretta v. California,
422 U.S. 806, 835 (1975)

16

Fowler v. Joyner,
753 F.3d 446, 462 (4th Cir. 2014)

16

Gray v. Person,
526 F. Appx. 331, 334 (4th Cir. 2013)

15

Holm v. United States,
537 U.S. 801 (2002)

30

Johnson v. United States,
520 U.S. 461 (1997)

24

Kennebrew v. State,
480 S.E.2d 1 (Ga. 1996)

15

viii

Lopez v. Scully,

58 F.3d 38 (2nd Cir. 1995)

15

McAfee u. Thaler,
630 F.3d 383, 391 (5th Cir.2011)

17

Maples v. Thomas,
505 U.S. 266, n.8 (2012)

15, 18

Massiah v. United States,
377 U.S. 201 (1964)..........
8-11, 21, 23, 25-26, 28-30, 32-33

n, IV,

Miller-El v. Cockrell,
537 U.S. 322, 327 (2003)

31

Nelson v. Peyton,
415 F.2d 1154, 1157 (4th Cir.1969)

17

United States v. Olano,
507 U.S. 725, 732 (1993)

20

O’Neal v. McAninch,
513 U.S. 432, 435 (1995)

23

Pennsylvania v. Finley,
481 U.S. 551, 555 (1987)

17

Pioneer Inv. Servs. Co. v. Brunswick Assocs. Ltd. P'ship,
507 U.S. 380 (1993)......................................................

19

Ross v. Moffitt,
417 U.S. 600, 607 (1974)

17

Slack v. McDaniel,
529 U.S. 473, 484 (2000)

31

Smith v. Behr Process Corp.,
54 P.3d 665, 113 Wash. App. 306 (Wash. App. 2002)

19

State v. Griddine,
75 S.W.3d 741 (Mo. Ct. App. 2002)

15

ix

State v. Taylor,
975 P.2d 1196 (Kan. 1999)

15

State v. Toney,
187 P.3d 138 (Kan. Ct. App. 2008)

15

Strickland v. Washington,
466 U.S. 668, 695 (1984)
20-24

11

United States u. Brown,
623 F.3d 104 (2nd Cir. 2010)

15

United States v. Brown,
785 F.3d 1337, 1340 (9th Cir. 2015)

14

United States v. Cronic,
466 U.S. 648, 80 L.Ed.2d 657, 660 (1984)

22, 25

United States v. Del Muro,
87 F.3d 1078 (9th Cir. 1996)

15

United States v. Elenniss,
No. 17-3986 (6th Cir. April 9, 2018)

15

United States v. Ellison,
798 F.2d 1102 (7th Cir. 1986)

15

United States v. Jeter,
35 M.J. 674 (A.C.M.R. 1992)

15

United States v. Kastigar,
406 U.S.441 (1972)

27-30

United States v. Moore,
159 F.3d 1154 (9th Cir. 1998)

15

United States v. Munoz,
605 F.3d 359 (6th Cir. 2010)

19

United States v. North,
910 F.2d 843, as amended, 920 F.2d 940 (D.C. Cir. 1990),
cert, denied, 500 U.S. 941 (1991)............................................

28-29

x

United States v. Sepulveda,
15 F.3d 1216, 1220 (1st Cir. 1993)

22

United States v. Shorter,
54 F.3d 1248 (7th Cir. 1995)

15

United States v. Williamson,
337 Fed. Appx. 288 (4th Cir. July 20, 2009) (unpublished,
per curiam) (No. 08-4055) (Williamson I), cert, granted, vacated,
and remanded, 561 U.S. 1003 (June 10, 2010) (No. 09-8915).......

29

United States v. Williamson,
2011 WL 332849 (4th Cir. August 3, 2011) (No. 08-4055)
(unpublished) (Williamson II)................................................

5

United States v. Williamson,
706 F.3d 405 (4th Cir. 2013) (Nos. 08-4055, 11-5179,
12—6933) (Williamson III), cert, den., 134 S.Ct. 421, 1
87 L.Ed.2d 312, 82 USLW 3216 (2013) (No. 09-8915)
25
Weatherford v. Bursey,
429 U.S. 545 (1977)

5, 17,

21, 27

Williamson v. United States,
Order & Recommendation of United States
Magistrate Judge, at 9-10, No. 1:14CV870
(M.D.N.C. January 9, 2019).........................
20, 23-24
Williamson v. United States,
Order, No. 1:14CV870 (M.D.N.C. March 26, 2018)
30
Williamson v. United States, Judgment,
No. 1:14CV870 (M.D.N.C. January 9, 2018)

vi, 1,

vi, 1,

7

Williamson v. United States,
No. 19-7464 (4th Cir. April 22, 2020) (unpublished) (Williamson IV)......6

xi

Constitutional Provisions
U.S. Const, amend. V

2

U.S. Const, amend. VI

2

Statutes
18 U.S.C. § 3006A(a)(2)
17

vii, 3,

18 U.S.C. § 3231

2

28 U.S.C. § 1254(1)

2

28 U.S.C. § 1291

2

28 U.S.C. § 2253
7-9, 30

v 1 1

28 U.S.C. § 2255
2, 6-7, 12-13

in, vii.

Federal Rules
Fed. R. Crim. P. Rule 33..............
iv, vii, 5-6, 8-10, 14-15, 18-20, 33

11-1V

Fed. R. Crim. P. Rule 45

19

Fed. R. Crim. P. 52(b)

25

xii

Other Authorities
Appellant’s Brief, at 33, United States v. Williamson,
No. 08-4055 (4th Cir.), filed November 26, 2008 (Williamson I)

24-25

Supplemental Joint Appendix 16-23, quoted in Supplemental Brief
of Appellant, filed February 16, 2011, United States v. Williamson,
No. #08-4055 (4th Cir.)...............................................................................

28

Kamisar, Yale. On the 'Fruits' of Miranda Violations, Coerced Confessions,
and Compelled Testimony, 93(5) MICH. L. Rev. 929, 964-68 (1995) ....

27

Petition for Writ of Certiorari, at 21, Williamson v. United States,
571 U.S. 969 (2013) ("No. 12-10633).........................................

26

Poulin, Anne B., Tests for Harm in Criminal Cases: A Fix for Blurred Lines,
17 U. Pa. J. Const. L. 991 (2015), available at:
https://scholarship.law.upenn.edU/icl/voll7/iss4/3...................................

20

Upshaw, Margaret A., The Unappealing State of Certificates
of Appealability, 82 U. Chi. L. Rev. 1609 (2015)..........

31

xiii

OPINIONS BELOW
The April 22, 2020, panel opinion of the Fourth Circuit Court of Appeals
denying the Petitioner a COA is available at Williamson u. United States, 802
Fed. App. 795 (4th Cir. April April 22, 202), Dkt #380-381, and is attached at
Appendix App. 1. The June 23, 2020, order of the Court of Appeals denying
rehearing en banc is available at Williamson v. United State, 2020 U.S. App
Lexis 19520 (4th Cir. June 23, 2020), Dkt # 383, and is attached at App. 3. On
January 9, 2018, Magistrate Judge Joe L. Webster, issued a report and
recommendation that Petitioners §2255 motion to vacate or correct sentence
should be denied, Williamson v. United States, Order & Recommendation, No.
l:14-CV-00870-NCT-JLW (M.D.N.C. January 9, 2019), , Dkt #364, and is
attached at App. 4. The March 26, 2018, Judge Tilley entered an order adopting
the Magistrate's report and recommendation to deny the Petitioner's motion to
vacate, set aside, correct sentence (§2255) and Judgment denying claims and
dismissing the case, Williamson v. United States, Judgment, No. l:14-CV-00870NCT-JLW (M.D.N.C. March 26, 2019), Dkt #368-369, and is attached at App. 25.

1

JURISDICTION
The District Court had original jurisdiction under 18 U.S.C. § 3231 in Case
No. l:06-CR-00474-NCT-l. The District Court had post-conviction jurisdiction
under 28 U.S.C. § 2255 in Case No. l:14-CV-00870-NCT-JLW. The Court of Appeals
had jurisdiction under 28 U.S.C. § 1291. This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
On March 19, 2020, this court extended the deadline to file petitions for Writs
of Certiorari in all cases due on or after the date of that order to 150 days from the
date of the lower court judgment, order denying discretionary review, or order
denying a timely petition for rehearing. The petition is timely filed.

RELEVANT CONSTITUTIONAL AND STATUTORY PROVISIONS
U.S. Const, amend. V:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a grand jury, except in cases arising
in the land or naval forces, or in the militia, when in actual service in time of
war or public danger; nor shall any person be subject for the same offense to
be twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation.
U.S. Const, amend. VI:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the state and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
2

The statutory provisions and court rules that are relevant to this petition are
attached as App. 86:
App.
App.
App.
App.

86
89
93
93

28 U.S.C. § 2350(c)(2)
28 U.S.C. § 3006A(a)(2)
Fed. R. Crim. P. 33
Fed. R. Crim. P. 52

3

STATEMENT OF THE CASE

A sealed single-count indictment charged Williamson and five co-defendants
with conspiracy to distribute 5 kilograms or more of a mixture and substance
containing a detectable amount of cocaine hydrochloride, in violation of 21 U.S.C. §§
846, 841(a)(1) and (b)(1)(A). (Dkt. #73). As summarized by the Court of Appeals:

The sealed indictment was issued December 18, 2006, and a warrant for
Williamson’s arrest was issued the following day. In January 2007, a
confidential informant, acting in concert with law enforcement agents, met
with Williamson while wearing a recording and transmitting device. At the
conclusion of the meeting, law enforcement attempted to arrest Williamson
on the outstanding warrant; however, he successfully evaded arrest. . . .
Williamson was eventually apprehended and arraigned on June 12, 2007.
United States v. Williamson, 337 F. App’x 288, 289-90 (4th Cir. 2009) (unpublished,
per curiam) (“Williamson I”). Following Williamson’s arrest, the indictment was
unsealed and Williamson was detained without bond. (Dkt. #73, 82). Facing
potential life in prison as the result of an § 851 enhancement filed by the
government,1 Williamson opted for trial, and on August 17, 2007, a jury found him
guilty. (Dkt. #123). He was held accountable by the jury for in excess of 400
kilograms of cocaine hydrochloride. (Id). On December 7, 2007, the district court
sentenced Williamson to life imprisonment followed by ten years of supervised
release. (Dkt. #191).

1 Williamson had two prior state convictions for possession with intent to sell and deliver
cocaine, one in 1994 and one in 2000. (See Information of Prior Conviction, Dkt. #116). In
the 1994 conviction, Williamson was sentenced to three years of imprisonment, suspended,
and three years of supervised probation. (PSR, Dkt. #362, at If 40). For the 2000 conviction,
Williamson received 12 to 15 months. (Id. at If 44).

4

On appeal, Williamson argued that the admission at trial of the recording of his
January 2007 statement to the confidential informant violated his right to counsel
under the Sixth Amendment. Finding no plain error, the Court of Appeals affirmed.
Williamson I, 337 F. App’x at 291. Williamson petitioned for certiorari, and on June
21, 2010, the Supreme Court vacated and remanded in light of the Solicitor
General’s brief. Williamson v. United States, 130 S. Ct. 3461 (2010). Upon its second
review of the case, the Court of Appeals vacated the judgment, finding that
Williamson’s right against self- incrimination may have been violated by admission
of the recording. United States u. Williamson, 447 F. App’x 446, 450 (4th Cir. 2011)
(unpublished) (“Williamson II”). The appellate court directed the district court to
determine on remand if Williamson’s statements were subject to compulsion, or
were “the product of any sort of coercion, legal or factual.” Id. (citation omitted).

Following a hearing on remand, the district court found in light of the totality of
the circumstances that no compulsion or coercion of any kind occurred, and
concluded that Williamson’s January 2007 statement was voluntary. (Memorandum
Opinion and Order of Nov. 21, 2011, Dkt. #291).2 The Court of Appeals affirmed.
United States v. Williamson, 706 F.3d 405 (4th Cir. 2013) (Nos. 08—4055, 11—5179,
12—6933) (Williamson III); (Dkt #314-315).

2 The Fourth Circuit remand on the Fifth Amendment was entered August 3, 2011. United
States v. Williamson, 2011 WL 332849 (4th Cir. August 3, 2011) (No. 08-4055) (Williamson
II). On September 13, 2011, the hearing on the remand in District Court was scheduled for
October 13, 2011 (Dkt #286). Judge Tilley then heard and denied Petitioner’s Rule 33
motion on September 22, 2011.
5

On October 16, 2014, Mr. Williamson filed his Motion to Vacate, Set Aside or
Correct Sentence pursuant to 28 U.S.C. § 2255 (Civil Action 1:14CV870, Dkt #321).
Mr. Williamson also moved to disqualify AUSA Sandra Hairston from representing
the government on the ground that she was improperly using fruits of the poisoned
tree in violation of Massiah v. United States, 377 U.S. 201 (1964) (Dkt. #331).3

In the 2255 motion, Petitioner raised the following issues as grounds for relief:

1. Appellate counsel James was ineffective on direct appeal for failing to brief
the following issues:
A) The illegal fruit of the (conceded to) Massiah violation that was used
by the government to convict the Petitioner at trial.
B) The government interfered with Petitioner’s attorney-client
relationship.
C) Trial counsel Beechler represented a conflict of interest seven days
after trial.
D) The District Court abused its discretion by denying the Petitioner’s
motion to substitute counsel at sentencing.
a. The District Court abused its discretion by denying the Petitioner’s
motion to substitute counsel at sentencing.
b. The Petitioner’s waiver of his Sixth Amendment Right to Counsel
at sentencing was involuntary.
c. Judge Tilley violated the Petitioner’s Sixth Amendment Right to
Counsel at a critical stage in the proceeding Rule 33(b)(2) therefore
causing the Petitioner to forfeit his right to file a Rule 33(b)(2)
motion in the District Court.
d. Judge Tilley abused his discretion by denying the Petitioner’s Rule
33(b)(2) motion as untimely.
3 On January 17, 2017, the President exercised executive clemency to commute Mr.
Williamson’s life sentence to one of 360 months.
6

2. Pre-trial counsel Tin and Beechler were ineffective for failing to investigate
or file pre-trial motions.
Petitioner’s Motion to vacate, set aside or correct sentence, 28 U.S.C. § 2255, Dkt.
#321.

Petitioner supported his claims for relief with his affidavit (Dkt #321, pp. 14-26)
and with submissions of materials from the trial testimony and other materials
from documents in the docket (Dkt #326). The Magistrate Judge in a Memorandum
Order recommended denial of the 2255 motion and the motion to disqualify the
AUSA. {United, States v. Williamson, Mem. Ord., No. 1:14CV870 (M.D.N.C. January
9, 2018), Dkt #364), App. 4. The Magistrate Order also denied Petitioner an
evidentiary hearing on his various claims. Id, at 21. Mr. Williamson filed objections
(Dkt #367), and Judge Tilley adopted the Magistrate’s recommendations, denied the
motions to disqualify the AUSA, denied the 2255 motion, and dismissed the action,
while finding no substantial issue for an appeal and denying a certificate of
appealability (Williamson v. United States, Judgment, No. 1:14CV870 (M.D.N.C.
entered January 9, 2018), Dkt #368 & Judgment #369), App. 25. Mr. Williamson
gave notice of appeal and moved in the Fourth Circuit for issuance of a certificate of
appealability under 28 U.S.C. § 2253 (2019) (Dkt #376 & #377).

The Court of Appeals dismissed his appeal of the § 2255 and denied a certificate
of appealability. Williamson v. United States, 802 Fed. App. 795 (4th Cir. 2020), Dkt
#380-381, attached at App. 1. The Fourth Circuit denied the petition for rehearing

7

en banc on June 23, 2020. Williamson v. United State, 2020 U.S. App Lexis 19520
(4th Cir. June 23, 2020), Dkt #383, attached at App. 3.

REASONS FOR GRANTING THE PETITION

This case presents important issues concerning the right to counsel in the
Massiah content, the denial of right to counsel by ineffective counsel, the denial of
counsel for appointment of counsel in “critical stages” of the prosecution, the proper
interpretation of Rule 33’s filing deadlines, safeguarding the Great Writ, and the
appropriate standard of review for default at trial of constitutional right to counsel
occasioned by ineffective counsel, but the Court of Appeals foreclosed appellate
review of the Magistrate order dismissing all right-to-counsel and other claims in
the § 2255 motion without an evidentiary hearing and by failing to apply correct
legal principles. On these facts, the Court of Appeals applied an overly-narrow
reading of the certificate of appealability (COA) statute, 28 U.S.C. § 2253(c)(2). This
Court should exercise its supervisory power and either remand this case for
evidentiary hearing in District Court on the issues raised in the request for COA
and § 2255 motion or grant the writ and give plenary review to the issues. Buck v.
Davis, 580 U.S.

I.

137 S. Ct. 759, 197 L.Ed.2d 1 (2017).

The decision below conflicts with this Court’s clear precedents for assessment of
constitutional claims for issuance of a certificate of appealability (COA) under 28
U.S.C. § 2253 by improperly denying review of rulings denying substantial

8

issues on the right to counsel and the proper standard for resolving right to
counsel claims.

A. The Court of Appeals by withholding the COA was in violation of this Court’s
clear directives because Petitioner’s § 2255 issues raise substantial constitutional
questions justifying appellate review under 28 U.S.C. § 2253.

Denial of the certificate of appealability violated clear directives of this Court
against narrow application of 28 U.S.C. § 2253 withholding the certificate of
appealability, as this imperils the Great Writ of habeas corpus. Petitioner in his
request for issuance of the COA raised claims of ineffective assistance of trial and
appellate counsel. Specifically, Petitioner claimed trial counsel was unprepared;
refused to contact, interview, or subpoena defense witnesses; failed to file pretrial
motions or object to admission of illegal evidence; and refused to file a new-trial
motion alleging his own ineffective performance. Petitioner also claimed appellate
counsel was ineffective by failing to argue the illegal use by the prosecution of the
fruits of the Massiah violation to prepare and shape witnesses’ testimony using the
statement incriminating Petitioner and also using confidential attorney-client
communications about defense strategies and defense actions; by failing to argue
the trial judge denied him counsel by allowing trial counsel to withdraw for conflict
of interests but denying Petitioner’s requests for substitute appointed counsel; by
denying appointment of counsel to assist in presenting a Rule 33(b)(2) new-trial
motion claiming trial counsel was ineffective for his conflicts of interests with
9

Petitioner during trial and his refusal to file the Rule 33(b)(2) motion; and by failing
to argue the trial judge abused his discretion in denying the Rule 33(b)(2) motion as
untimely (Dkt #321). The District Court denial of these claims without any
evidentiary hearing was contrary to clear precedent and this appeal raises
substantial constitutional issues that reasonable jurists could debate. The Court of
Appeals denial of the COA was in violation of this Court’s clear directives.

The Magistrate’s recommendations and the District Court adoption of the
recommendations denied clear precedents in failing to allow Petitioner a hearing on
his § 2255 claims and applied incorrect legal principles to deny the motion
summarily. The Magistrate denied Petitioner’s § 2255 claims largely by parroting
the previous rulings in this case, when the ineffectiveness of counsel and actual
conflict of interests with Petitioner throughout the trial had disabled his claims of
constitutional error under Massiah u. United States, 377 U.S. 201 (1964), and denial
of counsel under the Sixth Amendment right to effective counsel and right to
appointed counsel. Williamson v. United States, 802 Fed. App. 795 (4th Cir. 2020)
Dkt #380-381, attached at App. 1; petition for rehearing en banc denied, Williamson
v. United State, 2020 U.S. App Lexis 19520 (4th Cir. June 23, 2020), Dkt #383
attached at App. 3. This error of conflicted counsel throughout trial is structural
error and calls for the “presumed prejudice” analysis of the § 2255 claims, rather
than the “plain error” standard applied to isolated “trial error” applied on appeal. At
most, the § 2255 ineffective of assistance of counsel (LAC) claims require

10

Strickland’s harm analysis with the burden to show a reasonable probability of a
more favorable outcome.
The Magistrate also denied Petitioner any evidentiary hearing on his legal and
factual claims and resolved all claims without consideration of Petitioner’s affidavit
and submissions from the court records. United States v. Williamson, Mem. Ord.,
No. 1:14CV870, at 21 (M.D.N.C. January 9, 2018), Dkt#364), App. 24 These claims
are meritorious and clearly debatable. The Magistrate Judge recommended denial
of all claims, without an evidentiary hearing.
1. Trial counsel’s conflict of interests warrants presumed prejudice. Not only
was trial counsel ineffective for mishandling the Massiah issue; he was also
laboring under a conflict of interests given the circumstances of his entry into the
case and his refusal after trial to assert Petitioner’s claim he was ineffective at trial.
The trial judge in fact granted attorney Beechler’s motion to withdraw on the
ground that his representation had been beset by conflicts of interest with
Petitioner since the outset. This “conflict” developed out of Petitioner’s allegation
that Beechler was unprepared.

Trial counsel claimed to be prepared for trial when he entered the case on the
day jury selection began, and two days before the trial began. Petitioner plainly
denied trial counsel was prepared, as there had been scant communication with
Petitioner, who was in detention. (Dkt #229, App. 40) Moreover, Petitioner stated in
his affidavit that trial counsel acknowledged that the rushed trial schedule was

11

probably good for Petitioner, in that it would afford Petitioner post-trial ground for
a new trial. (Motion under 28 U.S.C. § 2255, p. 18, Petitioner’s Affidavit, ^ 25, Dkt
#321). Attorney Beechler did not disagree with Petitioner’s request and the need to
contact, interview, and subpoena defense witnesses, but told Petitioner on the same
day he first appeared that “he did not think the Court would allow the necessary
time to interview and prepare my defense witnesses.” (Motion under 28 U.S.C. §
2255, p. 17, Petitioner’s Affidavit,

21, Dkt #321).

In addition to Petitioner’s allegations creating a conflict, Beechler’s rush to
accept a fee to defend the government’s case was fatally undermined by his only
learning about the tape and Tin’s withdrawal after the tape fatally wounded Tin’s
defense strategy and Beechler’s only preparation was to review Tin’s incomplete
discovery, when he knew the judge would deny any request for additional time to
prepare by talking with Petitioner, investigating the case, and interviewing defense
witnesses. This situation led Beechler to misrepresent his being “prepared” in order
to be allowed to appear and keep his fee. (Tin had given Petitioner a substantial
refund of his fee upon withdrawing). Beechler, then, had reason to protect his
professional reputation and his fee by staying in the case without acknowledging to
the court he was actually never prepared, thus admitting the claims of Petitioner.

Beechler’s disingenuous claim to the judge that he was “prepared” actually
meant that he was only familiar with attorney Tin’s file. Petitioner had called
attorney Tin on August 11, 2007, to tell him he has hired Beechler as replacement
12

counsel and to request Tin send Beechler Tin’s discovery (which was incomplete at
that point) “and any other advice he could offer”. (Motion under 28 U.S.C. § 2255,
Petitioner’s Affidavit, pp. 16, f f 13-16, Dkt #321). The late disclosure of the tape to
Tin (received July 30, 2007), however, derailed Tin’s trial strategy to attack the co­
conspirators’ testifying against Petitioner under deals with the government and
picking apart different specific allegations as to Petitioner’s involvement with alibi
evidence impeaching the government testimony. After discovery disclosure of the
tape, on August 10, 2007, Tin abandoned this defense as untenable and insisted
Petitioner plead guilty, when Tin had not shared the tape with Petitioner.
Petitioner refused under those circumstances and Tin moved to withdraw. The
“preparation” Beechler had done when he first visited Petitioner on August 11
2007, was no more than becoming familiar with incomplete discovery and being
advised about an abandoned and untenable trial strategy. (Motion under 28 U.S.C.
§ 2255, Petitioner’s Affidavit, pp. 14-15,

8, 10-12, Dkt #321).

Altogether, Beechler’s conflict and lack of preparedness was partially one of his
own making and also one of the trial court’s refusal to delay the trial. See Powell v.
Alabama, 287 U.S. 45 (1932) (counsel entered the case on the day the trial started).4
4 This rush to trial was unreasonable because the trial schedule had been set when the
indictment was just unsealed and the Petitioner had just been arrested. Apparently, the co­
defendants had all been arrested and arraigned much earlier. Petitioner was arrested June
4, 2007, and the trial schedule was immediately set for July 9, 2007. Noell Tin first
appeared for Petitioner July 2, 2007 (Dkt #90), and the trial was continued to August (Dkt
#91). On the day of jury selection, attorney Beechler appeared to replace Mr. Tin, and
Judge Tilley made clear that he could only enter the case without any continuance. (Tp. Of
hearing August 13, 2007, Dkt #228).
13

According to the hearing transcript, (Dkt #220, hearing November 20, 2007), the
trial court made a cursory inquiry as to the conflict between counsel and client and
concluded the difference only concerned “tactics”, did not respond to Petitioner’s
request for counsel for the Rule 33 motion, and focused only on sentencing and the
request for counsel. Id. at 12-13. When counsel told the trial judge he felt Petitioner
would be dissatisfied with his representation going forward based on Petitioner’s
view of his ineffectiveness in trial, the judge agreed to let Mr. Beechler withdraw,
but opined he had no authority to appoint counsel for Petitioner. Id. at 16-17. Then
Petitioner informed the judge he was filing a grievance against Mr. Beechler with
the State Bar, at which point the judge said he would allow Petitioner a few days to
hire counsel but would not appoint him counsel. Id. at 20. Petitioner again insisted
he could not afford counsel, and the judge then told Petitioner he could either hire
another attorney or represent himself. Petitioner relented and said, “Well then ...
I’ll represent myself.” Id. The trial court simply failed to inquire into Petitioner’s
indigence, despite the hearing colloquy and the representations of Petitioner’s
indigence in the counsel’s motion to withdraw (Dkt #165). This was violative of the
Sixth Amendment and 18 U.S.C. § 3006A. See, e.g., United States v. Brown, 785
F.3d 1337, 1340 (9th Cir. 2015).

Nor did attorney Beechler agree after the verdict to present a claim of his own
ineffectiveness at trial, again because his loyalty was to himself rather than to his
client. After the jury verdict, attorney Beechler withdrew from representation

14

rather than present an ineffectiveness claim for a new trial motion, leaving
Petitioner alone for the Rule 33 motion and for sentencing. See Trial Counsel
Beechler’s motion to withdraw, filed November 16, 2007, Dkt. #165, and Transcript
of November 20, 2007, hearing re attorney Beechler’s motion to withdraw, Dkt
#220.

The Court recognizes that "significant conflict of interests" arises when an
attorney's interest is avoiding damage to his own reputation "is at odds with the
client’s strongest argument — i.e., his attorney is [ineffective]". Counsel is not
expected to make such an argument, which threatens the attorney’s professional
reputation and livelihood. See Maples v. Thomas, 505 U.S. 266, n.8 (2012). Circuit
courts are aligned on the proposition that when a client asserts that counsel is or
has acted ineffectively, the counsel is no longer expected to remain loyal solely to
the interests of the client, and prejudice is presumed.5

The Fourth Circuit has ruled that independent, conflict-free counsel must be
substituted to investigate ineffective claims. Gray v. Person, 526 F. Appx. 331, 334

5 E.g., Lopez v. Scully, 58 F.3d 38 (2nd Cir. 1995); United States v. Brown, 623 F.3d 104
(2nd Cir. 2010); MacAfee v. Thaler, 630 F.3d 383 (5th Cir. 2011); United States v. Elenniss,
No. 17-3986 (6th Cir. April 9, 2018); United States v. Ellison, 798 F.2d 1102 (7th Cir. 1986);
United States v. Shorter, 54 F.3d 1248 (7th Cir. 1995) (reversal for trial judge’s failure to
inquire into conflict); United States v. Jeter, 35 M.J. 674 (A.C.M.R. 1992); United States v.
Del Muro, 87 F.3d 1078 (9th Cir. 1996); United States v. Moore, 159 F.3d 1154 (9t,h Cir.
1998) (reversal for trial judge’s failure to inquire into conflict). State cases are similarly
uniform: E.g., State v. Toney, 187 P.3d 138 (Kan. Ct. App. 2008); State v. Griddine, 75
S.W.3d 741 (Mo. Ct. App. 2002); Kennebrew v. State, 480 S.E.2d 1 (Ga. 1996); State v.
Taylor, 975 P.2d 1196 (Kan. 1999) (counsel’s abrupt change of advice, giving defendant only
a few minutes to decide).
15

(4th Cir. 2013) (“[W]e find that a clear conflict of interest exists in requiring counsel
to identify and investigate potential errors that they themselves may have made.”).
Substitution of independent counsel is required "because a clear conflict of interest
exist in requiring Petitioner’s counsel to identify and investigate potential errors
they themselves may have made in failing to uncover ineffectiveness of trial counsel
while they represented Petitioner in his state post-conviction hearings". Fowler v.
Joyner, 753 F.3d 446, 462 (4th Cir. 2014).

2. The Magistrate and District Court erred in denying the request for
appointment of counsel between trial and sentencing. The Petitioner requested
appointment of counsel when attorney Beechler was allowed to withdraw but the
judge ruled he had waived appointed counsel when he told the court he intended to
hire counsel. The trial court said he could either hire substitute counsel or proceed
without counsel. (Dkt #220, App. 40) The Magistrate’s dismissal of the claim of
denial of appointment of substitute counsel was incorrectly premised on the trial
judge’s error concluding he had no discretion to appoint counsel because Petitioner
earlier voluntarily waived appointed counsel. The Magistrate ruled Petitioner
voluntarily waived trial counsel and chose to proceed pro se, citing Faretta v.
California, 422 U.S. 806, 835 (1975). Order & Recommendation, at 12. Petitioner
was forced to choose, after conflicted counsel who was allowed to withdraw, between
retaining conflicted counsel or proceeding without counsel. No consideration was
given to Petitioner’s claim he was indigent and entitled to appointed counsel.

16

The post-trial, pre-sentencing, and pre-appeal period is a critical stage where
counsel is a Sixth Amendment entitlement. “[C]ounsel is ... required in the hiatus
between the termination of trial and the beginning of an appeal,” Nelson v. Peyton,
415 F.2d 1154, 1157 (4th Cir.1969), and through the defendant's first appeal of
right, see Evitts v. Lucey, 469 U.S. 387, 396 (1985); Ross v. Moffitt, 417 U.S. 600,
607 (1974), but once the direct appeal has been decided, the Sixth Amendment right
to counsel comes to an end, see Pennsylvania v. Finley, 481 U.S. 551, 555 (1987). In
applying these principles, circuit courts have held that a new-trial motion filed after
the trial but before the appeal is a critical stage with the attendant Sixth
Amendment right to counsel, McAfee v. Thaler, 630 F.3d 383, 391 (5th Cir.2011)
(“Every federal circuit court to address the question of whether the post-trial, pre­
appeal time period for making a motion for new trial is a critical stage has
concluded that it is.”).

Neither the trial court nor the Magistrate considered the authority to appoint
counsel “in the interests of justice” under 18 U.S.C. § 3006A(a)(2). The Fourth
Circuit specifically recognized this authority in its February, 2013, opinion. United
States v. Williamson, 706 F.3d 405, n.10 (4th Cir. 2013) (Nos. 08—4055, 11-5179,

17

12—6933) (Williamson III); (Dkt #314).6

3. The Magistrate and District Court erred in denying the Rule 33 motion as
untimely. The verdict was returned on August 17, 2007, and Rule 33(b)(2) time
limit for filing is 14 days after the verdict. Attorney Beechler was allowed to
withdraw November 20, 2007. (Dkt #220, hearing November 20, 2007). The
Petitioner at sentencing complained about not having counsel and that trial counsel
was ineffective in failing to meet the deadline for the Rule 33(b)(2) motion due to his
conflict with Petitioner. At sentencing, December 7, 2007, the judge ruled the
motion was untimely and revised the motion was not necessary since the same
issues could be raised on direct appeal.

When a procedural default is due to ineffective counsel at a “critical stage” of the
adversarial process, the default is not attributable to the client. Coleman v.
Thompson, 501 U.S. 722, 111 S.Ct. 2546, 115 L.Ed.2d 640 (1991); see Maples v.
Thomas, 132 S. Ct. 912, 181 L.Ed.2d 807 (2012) (ineffectiveness of required counsel
6 In this appeal from the Fifth Amendment remand to District Court, Petitioner had filed a
motion for new trial for newly discovered evidence, Rule 33(b)(1) (Dkt #271) and a separate
request for appointment of counsel under 18 U.S.C. § 3006A (Dkt #270). Both were denied
and then incorporated into the pending appeal. The Fourth Circuit then affirmed the
denials but said that, although the period when an appeal is pending is not a critical stage,
and so the denial of counsel was correct under the Sixth Amendment, there was no reason
Petitioner could not be appointed counsel under 18 U.S.C. § 3006A. But since Petitioner [by
appointed appellate counsel] only argued the Sixth Amendment, there was no need to
address the denial of counsel under 18 U.S.C. § 3006A. Hence, on the first application,
Petitioner was held he waived appointed counsel in a critical stage under the Sixth
Amendment and no consideration was given to 18 U.S.C. § 3006A, while on the second
application during pendency of the appeal from denial of his § 3006A request, the Fourth
Circuit ruled the period was not a critical stage but there was no impediment under
§3006A, but he had argued only the Sixth Amendment issue so the § 3006A issue was not
reached.
18

breaks the bonds of partnership by which the fault of the attorney-agent is
attributable to the client-principal). In fact, Petitioner explained the conflict of
interest, the breakdown in communications, the ineffectiveness of trial counsel, and
his desire as an indigent for appointed counsel (Dkt #220, Tpp. 10-11). Under these
circumstances, the timeliness of the Rule 33 motion should have been recognized.

In addition, an untimely Rule 33 motion may be entertained upon a showing of
excusable neglect. The Petitioner was incarcerated and did not confer with trial
counsel post-trial until the Rule 33(b)(2) time limit had passed, and did not know
his options. Even if there was not a conflict between counsel and Petitioner, this
failure to communicate should be considered on the issue of excusable neglect. See
Fed. R. Crim. P. 45; Pioneer Inv. Serus. Co. v. Brunswick Assocs. Ltd. P'ship, 507
U.S. 380 (1993); United States v. Munoz, 605 F.3d 359 (6th Cir. 2010). When the
trial court is not aware of discretion, denial to exercise that discretion is error. E.g.,
Smith v. Behr Process Corp., 54 P.3d 665, 113 Wash.App. 306 (Wash. App. 2002).

The District Court at sentencing entertained Petitioner’s pro se request to be
allowed to file a Rule 33(b)(2) motion to set out claims of denial of counsel during
trial. The judge denied the request, ruling that the Rule 33 motion was untimely.7
The same analysis as in section 3, supra, applies here. Petitioner also implicitly

7 The judge counseled Petitioner the matters for the new trial motion could be heard on
appeal, so the motion was not only untimely but not required. (Dkt #229, at 4).
19

again requested appointment of counsel at sentencing for filing a Rule 33(b)(2)
motion alleging ineffectiveness of trial counsel. (Dkt #229, p.5)8

The Rule 33 motion was not untimely, this was a critical stage, and Petitioner
was then indigent and entitled to appointed counsel, and also appointment is
discretionary under 18 U.S.C. § 3006A. This Court should remand this case for
reconsideration of the merits of the application for counsel.

4. The District Court applied incorrect harm standards. The courts apply a
variety of tests for prejudicial error.9 As to assessment of the harm for § 2255 claims
of LAC “trial errors” or “appellate errors”, the correct standard is Strickland. The
Magistrate’s dismissal of the motion on its face implicitly re-applied the harsher
“plain error” standard under Fed. R. Crim. P. Rule 5210 that resolved these claims
without benefit of the prior resolution of the underlying IAC claims. Williamson v.
United States, Order & Recommendation of United States Magistrate Judge, No.
1:14CV870 (M.D.N.C. January 9, 2019), Dkt #364.

Given the conflict of interests between Petitioner and trial counsel Beechler that
persisted from before the start of the trial, as explained to the trial judge, the
8 The judge, after denying the new trial motion as untimely and announcing intention to
sentence him to life imprisonment, said he would hear anything Petitioner had to say.
Petitioner complained about having effective counsel “I mean, life imprisonment is not a
problem. The fact of me having proper representation to defend myself against the charges
against me is the problem.” (Dkt #229, p.5).
9 See Poulin, Anne B., Tests for Harm in Criminal Cases: A Fix for Blurred Lines, 17 U. Pa.
J. Const. L. 991 (2015), available at: https://scholarship.law.upenn.edU/jcl/voll7/iss4/3.
10 See United States v. Olano, 507 U.S. 725, 732 (1993).
20

adversarial process breaks down from the split loyalty of counsel and prejudice is
presumed. Cuyler v. Sullivan, 446 U.S. 335, 350 (1980). “[Prejudice is presumed
when counsel is burdened by an actual conflict of interest.” Strickland v.
Washington, 466 U.S. 668, 692 (1984). When prejudice is presumed, a new trial is
warranted. Prejudice is also presumed when the government intrudes into the
attorney-client relationship and contains knowledge about trial strategy and
defense action and uses this to prejudice the accused at trial. Weatherford v. Bursey,
429 U.S. 545 (1977). Any other trial error, including Massiah Sixth Amendment
error, is no longer important in the calculus of prejudice, whether proceeding under
the “plain error” or some less onerous standard. Even if the § 2255 claims are
deemed merely “trial errors” of ineffective counsel, the proper prejudice standard is
that in Strickland, not “plain error”.

The proper prejudice standard is either the Strickland “probability of a more
favorable outcome” standard for IAC “trial error” or the Cuyler “presumed
prejudice” standard for “structural error” from counsel being burdened with conflict
of interests with the Petitioner pervading the proceedings or the Weatherford
“presumed prejudice” for intrusion into the attorney-client relationship. The § 2255
motion documents that Petitioner was denied counsel throughout trial as attorney
Beechler was laboring under a conflict of interest with Petitioner throughout his
representation, and prejudice is presumed for this structural error. The evidence
also supports the conclusion that Alberty engaged Petitioner in conversation about

21

the actions and thinking of his attorney Chuck White about this offense and that
this information was transmitted to the prosecution and used to Petitioner’s
prejudice. This also occasions application of the “presumed prejudice” standard. The
remaining “trial error” or “appellate error” claims are properly evaluated Strickland
prejudice.
The Strickland “reasonable probability of more favorable outcome” standard for
IAC in trial errors (e.g., allowing the improper admission of evidence) requires the
defendant to show that, but for the identified problem, the outcome would have
been more favorable. Strickland, 466 U.S. at 694. To establish harm, the defendant
must show a reasonable probability that, but for the attorney’s failings, the outcome
would have been more favorable, where a reasonable probability is one sufficient to
undermine confidence in the outcome. Id. The First Circuit has noted that the
defendant may win reversal even if there is “less than an even chance that the
evidence would produce an acquittal.” Conley v. United States, 415 F.3d 183, 188
(1st Cir. 2005) (quoting United States v. Sepulveda, 15 F.3d 1216, 1220 (1st Cir.
1993)).
Under United States v. Cronic, 466 U.S. 648, 659 & n.25 (1984), when counsel
acts subject to divided loyalty in conflict with the client, prejudice is presumed, and
therefore the harmless error rule does not apply. Cronic’s presumption applies when
a criminal defendant has been completely denied the right to counsel for a critical
stage of the trial, which is an error that contaminates the entire proceeding. “When
an error of that magnitude happens, we do not ask whether the error was harmless;
22

we irrefutably presume that it was harmful”. Id. Under these circumstances, the
mishandling of the Massiah issue was not a standard “trial error” reversible only for
“plain error” but was at worst an ineffective assistance of counsel error calling for
the usual prejudice analysis under Strickland v. Washington, 466 U.S. 668, 695
(1984): “When a defendant challenges a conviction, the question is whether there is
a reasonable probability that, absent the errors, the fact-finder would have had a
reasonable doubt respecting guilt.”11
As to the claim that trial counsel was ineffective for failing to move to suppress
the tape recording, the Magistrate opined that issue was without merit because,
given the weight of the remaining evidence, Petitioner was likely to be found guilty.
Williamson u. United States, Order & Recommendation of United States Magistrate
Judge, at 13, No. 1:14CV870 (M.D.N.C. January 9, 2019), Dkt#364. In addition, the
pretrial motion should have included suppression of government evidence tainted as
the fruit of the poisoned tree, including witnesses prepared by knowledge of
Petitioner’s connections to different co-defendants. The prejudice analysis would be
very different under Strickland v. Washington, 466 U.S. 668, 695 (1984), rather
than “plain error”. And under Cuyler v. Sullivan, 446 U.S. 335, 350 (1980), trial
counsel was disabled by conflict of interest with Petitioner throughout the trial, and

11 When the unconstitutional evidence is objected to at trial, the government must convince
the court beyond a reasonable doubt that the error did not contribute to the verdict, and
when the showing is inadequate or in equipoise, the error mandates reversal. Chapman v.
California, 386 U.S. 18, 24 (1967). In a habeas case, this Court described the harm calculus
as to federal constitutional error: considering all the evidence and arguments as to
prejudice, the judge should ask “[d]o I . . . think the error substantially influences the jury’s
decision?” O’Neal v. McAninch, 513 U.S. 432, 435 (1995). If so, the error requires reversal.
23

this structural failure of the adversarial process presumes prejudice. The
Magistrate erroneously applied the “plain error” prejudice analysis when the Cuyler
“presumed prejudice” applies.

As to the claim that trial counsel was ineffective for failing to move for a new
trial, the Magistrate noted the trial judge ruled the motion untimely and advised
Petitioner he could raise the issue on appeal, and ruled Petitioner could not show
prejudice and the motion was meritless. Williamson v. United States, Order &
Recommendation of United States Magistrate Judge, at 12-13, No. 1:14CV870
(M.D.N.C. January 9, 2019), Dkt #364, App. 4. In fact, appellate counsel obliquely
raised this issue on appeal to no effect, (Appellant’s Brief, at 33, United States v.
Williamson, No. 08-4055 (4th Cir.), filed November 26, 2008 (Williamson I), and
Petitioner raised it in the 2255 proceeding, only to be denied without an evidentiary
hearing. Again, the Magistrate relied upon the improper prejudice standard applied
in the direct appeal, when either the Cuyler or Strickland standards apply to the §
2255 claim.

In the appeal to the Fourth Circuit after conviction, Petitioner’s appellate
attorney argued the proper review for trial counsel’s neglect to object to the
introduction of the tape was for “plain error” under Fed. R. Crim. P. 52(b),12 since
12 Rule 52(b) provides: “Plain Error. Plain errors or defects affecting substantial rights may
be noticed although they were not brought to the attention of the Court”. Plain error
affecting a substantial constitutional right is reversible if it "seriously affect[s] the fairness,
integrity, or public reputation of judicial proceedings." Johnson v. United States, 520 U.S.
461 (1997).
24

“[n]o competent criminal defense attorney would fail to object to the introduction of
such incriminating statements”. (Appellant’s Brief, at 33, United States v.
Williamson, No. 08-4055 (4th Cir.), filed November 26, 2008 (Williamson I). After
the remand by this Court, appellate attorney for Petitioner argued that under
United States v. Cronic, 466 U.S. 648, 667 n. 42 (1984), the right to counsel failed
structurally, and prejudice is presumed. Supplemental Brief of Appellant at 4-5,
filed February 16, 2011, United States v. Williamson, 706 F.3d 405 (4th Cir. 2013)
(Nos. 08-4055, 11-5179, 12-6933) (Williamson III); (Dkt#314).

In addition, Petitioner claims that appellate counsel was ineffective for failing to
argue that Massiah was violated not just by introduction of the tape recording but
also by government use of the fruits of the violation in shaping witnesses’ testimony
based on the recording; by reporting about his trial strategy after intrusion into his
relationship with his attorney; and by the prosecutor emphasizing the Petitioner’s
self incrimination to jurors and at sentencing.

The Magistrate dismissed Petitioner’s claim that appellate counsel failed to
argue the ineffectiveness of trial counsel and for trial counsel failing to file a new
trial motion. The Magistrate did not make any finding of facts or review the
materials submitted by Petitioner, and effectively faulted Petitioner for defective
pleading, even though the affidavit and other submissions add ample specificity to
the claims. Id. at 11. The Magistrate responded to the claim appellate counsel failed
to brief the issue of the government’s use of the unconstitutional fruits of the
25

Massiah error (in preparing witnesses’ testimony to portray Petitioner as the center
of the conspiracy prior to trial, by the prosecutor’s use of the self-incrimination
before the jury, by intruding into the attorney-client relationship) simply by stating
that the Fourth Circuit dismissed the introduction of the tape at trial and that the
government reported it had found and debriefed three of the witnesses prior to the
January 29, 2007, taping.13 Id. at 9-10. The Magistrate ruled: “The undersigned
agrees with the Fourth Circuit that the tape-recording in question had no material
impact on the outcome of the trial given the other overwhelming evidence of
Petitioner’s guilt.” Id. at 9. As to the other witnesses, the Magistrate dismissed the
claim since the “there is no evidence that anything Petitioner said during the
{Alberty] meeting was used to identify any of these witnesses.” Id. at 10. There was
“no evidence” because the Magistrate denied an evidentiary hearing as well as
discovery. Id. at 21. Because the Magistrate limited the fruits impact solely to
whether the government knew about three of the witnesses before the taping, and
denied the opportunity to develop these facts, the Magistrate’s calculus of the harm
of the full extent of the Massiah error was truncated. Petitioner is entitled to
develop these facts and have the Massiah harm properly considered under the
correct standard.

13 Petitioner has disputed this and documented testimony of these witnesses denying
debriefing before the tape recording. See Petition for Writ of Certiorari, at 21, Williamson v.
United States, 571 U.S. 969 (2013) ("No. 12-10633).
26

The “fruit of the poisoned tree” doctrine is not as limited as the Magistrate’s
ruling. The prohibited fruits extend to any “use and derivative use”. Kamisar, Yale.
On the 'Fruits' of Miranda Violations, Coerced Confessions, and Compelled
Testimony, 93(5) MICH. L. Rev. 929, 964-68 (1995); Kastigarv. United States, 406
U.S. 441 (1972) (rejecting transactional scope for “use and derivative use”
prohibition for fruits of self-incrimination violations).

Petitioner in his Objections to the Magistrate’s Order and Recommendations
discussed in detail his claims about the illegal use of the tape recording and his
evidentiary support in his affidavit and in the record. (Dkt #367) Attached to his
Objections is a detailed two-page “Fruit of the Poisonous Tree Chart” detailing his
claim based upon transcribed trial testimony facts the witnessed “did not know
before” the tape recording, identifying four government witnesses the government
exposed to the facts learned from Alberty recording the Petitioner.14 He also details
by transcript records how the prosecutor in closing arguments hammered hone the
centrality of Petitioner, repeatedly pointing out that this or that government
witness did not know others except Petitioner and that only Petitioner knew each of

14 The § 2255 motion (Dkt #321) also attached the Alberty recoding transcript and Alberty
is engaging Petitioner about Chuck White, his attorney on this case, trying to find out who
has been arrested, how to handle the case, what Petitioner is telling him, and how White is
using Petitioner fees to represent another co-conspirator. (Attachment to Motion,
“Transcript of Conversation January 29, 2007”, pp. 9, 18, 20-22, 24, 27, 36). This evidence,
known to the prosecution, is part of the government using the fruits of the tape recording to
infiltrate the actor-client relationship and learn about confidential communications,
attorney actions, and trial strategy. An evidentiary hearing is required to examine this
intrusion into the attorney-client relationship in detail. See Weatherford v. Bursey, 429
U.S. 545 (1977).
27

the conspirators., repeating that “these are [Petitioner’s] words” and “all you have to
do is look at Mr. Williamson’s own words.” (Dkt # 278) Petitioner also set out how
he communicated to appellate counsel his dissatisfaction with not briefing the fruits
violations, pressing him to file a supplemental brief. See Supplemental Joint
Appendix 16-23, quoted in Supplemental Brief of Appellant, filed February 16,
2011, United States v. Williamson, (4th Cir.) (No. 08-4055).

5. Evidentiary hearings are required to resolve Massiah taint. A Massiah
evidentiary hearing is a fact-intensive hearing. The government has the burden of
proving that factual information was discovered before January 29, 2007, and the
error was not exploited to Petitioner’s harm at trial. United States v. Kastigar, 406
U.S. at 460 (a mere assertion by the government that they did not use any illegal
evidence in their case in chief will not be sufficient).

The analytical framework for a hearing under Kastigar that applies to the
resolution of the Massiah taint issue is set out in United States v. North, 910 F.2d
843, as amended, 920 F.2d 940 (D.C. Cir. 1990), cert, denied, 500 U.S. 941 (1991). In
order to determine the extent of a witness’s exposure to the illegal evidence, the
court must hold a full hearing to inquire into the contents as well as sources of the
trial witnesses testimony. “That inquiry must proceed witness-by-witness; if
necessary, it will proceed line-by-line and item-by-item,” North, 910 F.2d at 872.

28

Unless the District Court can make express findings that the government has
carried this heavy burden as to the content of all of the testimony of each witness,
that testimony cannot survive the Kastigar test. If the government has failed to
carry its burden with respect to any item or part of the testimony of any grand jury
or trial witness, the trial court then considers whether that failure is harmless
beyond a reasonable doubt. North, 910 F.2d at 873.

Taint exists if the evidence has been made available to refresh witnesses
testimony, to focus thoughts, to organize testimony, or to alter prior or
contemporaneous statements. Id. at 860. The substantive content of the witness’s
testimony cannot have been shaped, altered, or affected by the illegal evidence in
any way. Id at 863. "Kastigar does not prohibit simply 'a whole lot of use,' or
'excessive use,' or 'primary use' of compelled testimony. It prohibits 'any use,' direct
or indirect." Id. at 843

This Court reversed the Fourth Circuit’s initial ruling that no Massiah
violation occurred, on the Fourth Circuit reasoning that the right to counsel had yet
to attach when the Alberty tape recording was made. United States v. Williamson,
337 Fed. Appx. 288, 289-290 (4th Cir. July 20, 2009) (unpublished, per curiam) (No.
08-4055) (Williamson I) (Dkt #254; Judgment July 20, 2009, Dkt #255). The
Massiah error has not been subject to thorough evidentiary airing, as the
government’s use of the fruits of the error has never been examined apart from
conclusory statements by the government claiming absence of taint. This Court’s
29

remand was only on the issue of the introduction of the tape recording’s “plain
error”. The full measure and estimation of error must also include identifying
tainted evidence and use. This requires remand for evidentiary hearing on the facts.
And the claim of ineffective counsel’s failure to brief this “fruits” aspect of Massiah
or the assessment of prejudice also requires the Kastigar hearing.

6. The COA was erroneously withheld._The trial judge adopted the Magistrate’s
Recommendation, denied the claims, and dismissed the case. Williamson v. United
States, Order, No. 1:14CV870 (M.D.N.C. March 26, 2018) (Dkt#368), App. 25;
Judgment, March 26, 2018 (Dkt #369). The Court of Appeals and the District Court
denied a certificate of appealability (COA) when this case clearly raises a
substantial issue on the Sixth Amendment constitutional right. Not only was the
error one affecting a substantial constitutional right — Petitioner’s right to counsel
— but the failure to object at trial to the tape recording was due to another breach
of Petitioner’s right to counsel — the right to effective assistance of counsel.

Certiorari should be granted because "jurists of reason could disagree with the
district Court's resolution of [the] constitutional claims or that jurists could
conclude the issues presented are adequate to deserve encouragement to proceed
further.” Hohn v. United States, 537 U.S. 801 (2002). This Court's precedent is
clear: a COA involves only a threshold analysis and preserves full appellate review
of potentially meritorious claims. Thus, "a prisoner seeking a COA need only
demonstrate a 'substantial showing'" that the district court erred in denying relief.
30

Miller-El v. Cockrell, 537 U.S. 322, 327 (2003) (quoting Slack v. McDaniel, 529 U.S.
473, 484 (2000) and 28 U.S.C. § 2253(c)(2)). This "threshold inquiry" is satisfied so
long as reasonable jurists could either disagree with the district court's decision or
"conclude the issues presented are adequate to deserve encouragement to proceed
further." Miller-El, 537 U.S. at 327, 336. A COA is not contingent upon proof "that
some jurists would grant the petition for habeas corpus. Indeed, a claim can be
debatable even though every jurist of reason might agree, after the COA has been
granted and the case has received full consideration, that Petitioner will not
prevail." Id. at 338.

In sum, the touchstone is "the debatability of the underlying constitutional claim
[or procedural issue], not the resolution of that debate." Id. at 342; see also id. at
348 (Scalia, J., concurring) (recognizing that a COA is required when the district
court's denial of relief is not "undebatable"). Applying this standard in Miller-El,
this Court reversed the Fifth Circuit's denial of a COA in a jury discrimination case,
and explained that "a COA can be supported by any evidence demonstrating that,
despite the neutral explanation of the prosecution, the peremptory strikes in the
final analysis were race based." Id. at 340 (emphasis added). See generally
Margaret A. Upshaw, The Unappealing State of Certificates of Appealability, 82 U.
Chi. L. Rev. 1609 (2015).

The three-panel appellate court judges did not assess the debatability or
consider if jurists of reason could disagree with the district court's resolution of the
31

constitutional claims. This Court should exercise supervisory power to ensure that
the important COA gateway to appellate review is not foreclosed by overly stringent
standards, in conflict with this Court’s clear direction.

II. The writ should be granted because the ruling below withholding the COA is
in direct conflict with clear precedents of this Court and threatens the Great Writ
and public respect for the administration of justice.

This case is important to this Court’s supervisory authority in the context of
remands, as the Court of Appeals sua sponte diverted this Court’s previous GVR
and interposed a lengthy and wasteful proceeding on the Fifth Amendment
“involuntariness” issue and burdened the petition with delay fighting an issue he
had not raised. The Petitioner has never had full consideration of the Massiah Sixth
Amendment violation, as ineffective counsel failed to argue how the Massiah error’s
prejudice was manifestly increased by prosecution advantage from the fruits of the
error in preparing witnesses, focusing the prosecution, handicapping unprepared
trial counsel’s ability to impeach witnesses, and featuring Petitioner’s devastating
confession to the jurors. Nor has Petitioner had any evidentiary hearing to litigate
his claims of IAC at trial and on appeal. To preserve this Court’s supervisory power
and to protect the Great Writ and the right to counsel, this Court should remand
this case again with explicit direction for the Fourth Circuit to remand the § 2255
claims for evidentiary hearing in District Court, with plenary appellate review of
any appeal of the District Court ruling.
32

This case is also important to the public to retain respect for the fairness of
procedures essential to the public’s confidence in criminal prosecutions. The defense
of constitutional rights undergirding due process and fair trials is not in principle so
much concerned with fairness to each defendant, but is more concerned that the
general public remains unconcerned that aberrant procedures may ensnare the
innocent among the general public with abusive government authorities and
tyrannical exercises of arbitrary power. This erosion of confidence directly threatens
our liberal democracy’s placing premium value on the freedom of the individual and
safeguards preventing denial of life, liberty, or property at the hands of an arbitrary
judiciary.
CONCLUSION
For the foregoing reasons, the petition should be granted and this Court should
remand this case to the Fourth Circuit to remand the case to the District Court for
evidentiary hearings on Massiah, ineffective counsel claims, and for appointment of
counsel regarding a Rule 33(b)(2) motion. In the alternative, this Court should
grant the writ and reach the merits of the Petitioner’s 2255 claims.

Dated: N&V. M,
1
Respectfully submitted,

Rodney Anton Williamson,
pro se
33

COUNSEL
Petitioner:
Rodney Anton Williamson, pro se
Register Number: 23534-057
FCI Ashland
P.O. Box 6001
Ashland, KY 41105
Respondents:
Angela Hewlett Miller
Assistant U.S. Attorney
Office of the U.S. Attorney M.D.N.C.
101 South Edgeworth Street, Fourth Floor
Greensboro, NC 27401
336-333-5351
Email: angela.miller@usdoj.gov
Sandra J. Hairston
Assistant U.S. Attorney
Office of the U.S. Attorney M.D.N.C.
101 South Edgeworth Street, Fourth Floor
Greensboro, NC 27401
336-333-5351
Email: Sandra.hairston@usdoj.gov

34

